U.S. Department of                                            Office of Inspector General
Transportation                                                Washington, DC 20590

Office of the Secretary
of Transportation



February 7, 2007

Mr. Steven E. Goldberg
Chief Financial Officer
National Transportation Safety Board
490 L’Enfant Plaza, SW
Washington, DC 20594

Dear Mr. Goldberg:

The Office of Inspector General (OIG) is initiating its audit of the National
Transportation Safety Board (NTSB) Fiscal Years (FY) 2007 and 2006 Financial
Statements. The statements will be audited by an independent external auditor,
subject to OIG oversight.

The audit will be conducted in accordance with Generally Accepted Government
Auditing Standards and Office of Management and Budget Bulletin 06-03, “Audit
Requirements for Federal Financial Statements.”

The audit opinion on the FY 2007 NTSB Financial Statements is due to the Office
of Management and Budget by November 15, 2007. The audit will be conducted
at NTSB Headquarters in Washington, D.C. and its service provider in Denver,
Colorado. The Program Director for this audit is Earl Hedges, the Project
Manager is George Banks. If you have any questions, please call me at (202)
366-1496 or Earl Hedges, at (410) 962-3612.

Sincerely,



Rebecca C. Leng
Assistant Inspector General
 for Financial and Information Technology Audits
